No. 19-

IN THE

Oupreme Court of tbe Eniteb fotateo
ADNAN SYED,
Petitioner,
v.
STATE OF MARYLAND,
Respondent.

On Petition for a Writ of Certiorari to the
Maryland Court of Appeals

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,508 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 19, 2019.

I
Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

